No.
In the Supreme Court of the United States

SANDRA DEMUTH
Plaintiff-Appellant,
-vUNITED STATES SMALL BUSINESS
ADMINISTRATION, CHRISTOPHER
PILKERTON, in his official capacity as
Acting Administrator of Small Business
Administration,
Defendants-Appellees,
MARIA CONTRERAS-SWEET, Administrator,
Defendant.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Second Circuit
APPENDIX FOR WRIT OF CERTIORARI
Sandra DeMuth, Pro Se
14 Alys Dr. E.
Depew, NY 14043
(716)-681-2257

Case 19-1634, Document 124, 09/25/2020, 2938518, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
25th day of September, two thousand twenty.

Sandra DeMuth.
Plaintiff - Appellant,

ORDER
Docket No: 19-1634

v.
United States Small Business Administration, Christopher
Pilkerton, in his official capacity as Acting Administrator of
Small Business Administration,
Defendants - Appellees,

Maria Contreras-Sweet, Administrator,
Defendant.

Appellant Sandra DeMuth, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Case 19-1634, Document 116-1, 07/07/2020, 2877528, Pagel of 6

19-1634-cv
DeMuth v. United States Small Bus. Admin., et al
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary
ORDER FILED ON OR AFTER JANUARY 1,2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE

of Appellate Procedure 32.1 and this court’s Local Rule 32.1.1.

When citing a

SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE

Federal Appendix or an electronic database (with the notation "summary order").
A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED
BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 7th day of July, two thousand twenty.

PRESENT:

GUIDO CALABRESI,
DENNY CHIN,
SUSAN L. CARNEY,
Circuit Judges.
x

SANDRA DEMUTH,
Plaintiff-Appellant,
-v-

UNITED STATES SMALL BUSINESS
ADMINISTRATION, CHRISTOPHER
PILKERTON, in his official capacity as
Acting Administrator of Small Business
Administration,
Defendants-Appellees,

19-1634-cv

Case 19-1634, Document 116-1, 07/07/2020, 2877528, Page2 of 6

MARIA CONTRERAS-SWEET, Administrator,
Defendant.

FOR PLAINTIFF-APPELLANT:

Sandra DeMuth, pro se, Depew, New
York.

FOR DEFEND ANTS-APPELLEES:

Michael S. Cerrone, Assistant United
States Attorney, for James P. Kennedy,
Jr., United States Attorney for the
Western District of New York, Buffalo,
New York.

Appeal from a judgment of the United States District Court for the
Western District of New York (Arcara, /.; Scott, M.J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgment of the district court is AFFIRMED.
Proceeding pro se, plaintiff-appellant Sandra DeMuth appeals the
judgment of the district court dismissing her claims against defendants-appellees the
United States Small Business Administration ("SBA") and Acting SBA Administrator
Christopher Pilkerton (together, "defendants"). By decision and order entered May 3,
2019, the district court adopted the conclusions of the Magistrate Judge's report and
recommendation ("R&R") and granted defendants' motion for summary judgment. In
her complaint, DeMuth, who was then represented by counsel, alleged violations of
Title VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e et seq. ("Title VII"), and state
law in connection with, inter alia, defendants' termination of her employment. On

Case 19-1634, Document 116-1, 07/07/2020, 2877528, Page3 of 6

appeal, DeMuth argues principally that the record presents disputed issues of material
fact that precluded the granting of summary judgment.1 We assume the parties'
familiarity with the underlying facts, the procedural history of the case, and the issues
on appeal.
DeMuth worked for the SBA as an informational technology ("IT")
specialist from 2005 until 2011. DeMuth alleged, inter alia, that defendants
discriminated against her on the basis of her gender, and that after she sought
counseling from the SBA's Equal Employment Office ("EEO"), defendants retaliated by
dismissing her.
We review a grant of summary judgment de novo, ”resolv[ing] all
ambiguities and draw[ing] all inferences against the moving party."

Garcia v. Hartford

Police Dep't, 706 F.3d 120,126-27 (2d Cir. 2013). Although courts must draw all

1
In her complaint, DeMuth asserted claims under the Age Discrimination in Employment
Act of 1967, 29 U.S.C. § 621 et seq. ("ADEA"), and the Rehabilitation Act of 1973, 29 U.S.C. § 701
et seq. She abandoned her ADEA claim prior to summary judgment, however, and does not
raise her claims under the Rehabilitation Act on appeal. Accordingly, these claims are waived.
SeeAhlers v. Rabinowitz, 684 F.3d 53, 66 (2d Cir. 2012) (finding that "[ijssues not sufficiently
argued in the briefs are considered waived") (internal quotation marks omitted); Moates v.
Barkley, 147 F.3d 207,209 (2d Cir. 1998) (holding, in appeal brought by pro se litigant, that issue
not mentioned in appellant's brief was waived). Moreover, DeMuth alleges hostile work
environment claims and raises the Equal Pay Act for the first time on appeal. Claims not
raised below are waived. See Tannerite Sports, LLC v. NBCUniversal News Grp., 864 F.3d 236,
252-53 (2d Cir. 2017) (noting than "an appellate court will not consider an issue raised for the
first time on appeal") (internal quotation marks omitted). Accordingly, we decline to consider
these claims as well.
3

Case 19-1634, Document 116-1, 07/07/2020, 2877528, Page4 of 6

inferences in favor of the non-moving party, "reliance upon conclusory statements or
mere allegations is not sufficient to defeat a summary judgment motion." Davis v. New
York, 316 F.3d 93,100 (2d Cir. 2002). "Summary judgment is proper only when,
construing the evidence in the light most favorable to the non-movant, 'there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.'" Doninger v. Niehoff, 642 F.3d 334, 344 (2d Cir. 2011) (quoting Fed. R.
Civ. P. 56(a)).
Employment discrimination and retaliation claims under Title VII are
analyzed under the McDonnell Douglas burden shifting framework. McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 802-05 (1973) (discrimination); Kwan v. Andalex Grp. LLC,
737 F.3d 834, 843-44 (2d Cir. 2013) (retaliation). Under this framework, (1) a plaintiff
must first establish a prima facie case of discrimination (or retaliation); (2) if the
employee does so, the burden then shifts to the employer to articulate a legitimate, nondiscriminatory (or non-retaliatory) reason for the adverse action. See McDonnell
Douglas Corp., 411 U.S. at 802; Kwan, 737 F.3d at 835. If the employer satisfies its
burden, the plaintiff must then show that the reasons presented were a "pretext for
discrimination" (or retaliation). Lenzi v. Systemax, Inc., 944 F.3d 97,108 (2d Cir. 2019)
(internal quotation marks omitted). To survive summary judgment, "[t]he plaintiff
must produce not simply some evidence, but sufficient evidence to support a rational
4

Case 19-1634, Document 116-1, 07/07/2020, 2877528, Page5 of 6

finding that the legitimate, non-discriminatory reasons proffered by the defendant were
false, and that more likely than not discrimination [or retaliation] was the real reason
for the employment action." Weinstock v. Columbia Univ., 224 F.3d 33, 42 (2d Cir. 2000)
(internal quotation marks and brackets omitted).
Here, we conclude that no reasonable jury could find that DeMuth was
dismissed for a discriminatory or retaliatory reason. DeMuth admitted that neither her
supervisor, Thomas Guido, nor any other SB A supervisors criticized her work in sexist
terms or made derogatory statements about women. Further, though on appeal
DeMuth asserts that her colleague William Malek "was unwilling to learn anything
from a woman, much less regard me as a coworker," Appellant's Br. at 8, beyond this
conclusory allegation, she fails to identify any evidence in the record to suggest that her
gender or her seeking counseling from the EEO was a motivating factor in the decision
to terminate her employment. See Davis, 316 F.3d at 100. Moreover, defendants
presented evidence that her declining performance was a legitimate, nondiscriminatory reason for her termination, see McDonnell Douglas Corp., 411 U.S. at 802,
and DeMuth failed to present any evidence to show that this was a pretext for
discrimination or retaliation, see Weinstock, 224 F.3d at 42. Accordingly, we conclude

5

Case 19-1634, Document 116-1, 07/07/2020, 2877528, Page6 of 6

that the district court did not err when it granted defendants' motion for summary
judgment.2

We have considered DeMuth's remaining arguments and find them to be
without merit. Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

2
DeMuth challenges the district court's determination that, because she first sought EEO
counseling on October 15, 2010, any Title VII claims that relied on events prior to September 1,
2010 were time-barred. We are unpersuaded. Federal employees are required to exhaust
administrative remedies by initiating EEO counseling within 45 days of a discriminatory act.
See 29 C.F.R. § 1614.105(a); Fitzgerald v. Henderson, 251 F.3d 345, 359 (2d Cir. 2001) ("The 45-day
period serves as a statute of limitations; thus, as a general rule, claims alleging conduct that
occurred more than 45 days prior to the employee's initiation of administrative review are timebarred."). Moreover, the continuing violation doctrine is inapplicable as the allegedly
discriminatory acts are discrete acts and the continuing violation doctrine does not apply to
discrete acts. See Chin v. Port Auth. ofN.Y. & N.J., 685 F.3d 135,156 (2012).

6

Case 19-1634, Document 116-2, 07/07/2020, 2877528, Pagel of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
ROBERT A. KATZMANN

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: July 07, 2020
Docket#: 19-1634cv
Short Title: DeMuth v. Pilkerton

DC Docket#: 16-cv-125
DC Court: WDNY (BUFFALO)
DC Judge: Scott
DC Judge: Arcara

BILL OF COSTS INSTRUCTIONS

The requirements for filing a bill of costs are set forth in FRAP 39. A form for filing a bill of
costs is on the Court's website.
The bill of costs must:
* be filed within 14 days after the entry of judgment;
* be verified;
* be served on all adversaries;
* not include charges for postage, delivery, service, overtime and the filers edits;
* identify the number of copies which comprise the printer's unit;
* include the printer's bills, which must state the minimum charge per printer's unit for a page, a
cover, foot lines by the line, and an index and table of cases by the page;
* state only the number of necessary copies inserted in enclosed form;
* state actual costs at rates not higher than those generally charged for printing services in New
York, New York; excessive charges are subject to reduction;
* be filed via CM/ECF or if counsel is exempted with the original and two copies.

Case 19-1634, Document 116-3, 07/07/2020, 2877528, Pagel of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
ROBERT A. KATZMANN

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: July 07, 2020
Docket#: 19-1634cv
Short Title: DeMuth v. Pilkerton

DC Docket#: 16-cv-125
DC Court: WDNY (BUFFALO)
DC Judge: Scott
DC Judge: Arcara

VERIFIED ITEMIZED BILL OF COSTS

Counsel for
respectfully submits, pursuant to FRAP 39 (c) the within bill of costs and requests the Clerk to
prepare an itemized statement of costs taxed against the
and in favor of
for insertion in the mandate.
Docketing Fee
Costs of printing appendix (necessary copies
Costs of printing brief (necessary copies
Costs of printing reply brief (necessary copies

(VERIFICATION HERE)
Signature

Case l:16-cv-00125-RJA-HBS Document 52 Filed 05/03/19 Page 1 of 2

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

SANDRA DeMUTH,
Plaintiff,
DECISION AND ORDER
16-CV-125A

v.
LINDA McMAHON, et al,
Defendants.

This case was referred to Magistrate Judge Hugh B. Scott pursuant to 28
U.S.C. § 636(b)(1) for the conduct of pretrial proceedings. On February 21,2019,
Magistrate Judge Scott filed a Report and Recommendation (Dkt. No. 45)
recommending that Defendants Linda McMahon and the U.S. Small Business
Administration’s motion for summary judgment pursuant to Fed. R. Civ. P. 56 (Dkt. No.
29) be granted.
On March 7, 2019, Plaintiff filed objections to the Report and Recommendation
(Dkt. No. 46). On March 19, 2019 defendant Linda McMahon, as Administrator of the
U.S. Small Business Administration, filed a response to Plaintiff’s objections (Dkt. No.
48), and the matter was deemed submitted.
Pursuant to 28 U.S.C. §636(b)(1), this Court must make a de novo
determination of those portions of the Report and Recommendation to which
objections have been made. Upon de novo review, and after carefully reviewing the
submissions from the parties, the Court adopts Magistrate Judge Scott’s conclusions. It
is, therefore

Case l:16-cv-00125-RJA-HBS Document 52 Filed 05/03/19 Page 2 of 2

ORDERED, that pursuant to 28 U.S.C. § 636(b)(1), and for the reasons set forth
in Magistrate Judge Scott’s Report and Recommendation, Defendants’ motion for
summary judgment (Dkt. No. 29) is granted.
The Clerk of the Court shall take all steps necessary to close the case.
IT IS SO ORDERED.

s/Richard J. Arcara
HONORABLE RICHARD J. ARCARA
UNITED STATES DISTRICT COURT
Dated: May 3, 2019

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 1 of 18

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

Sandra DeMuth,
Plaintiff,

Report and Recommendation
16-CV-125A

v.
Linda McMahon et al.,
Defendants.

I.

INTRODUCTION
Plaintiff Sandra DeMuth was hired by the Small Business Administration (“SBA”) as an
Information Technology Specialist at age 56. Plaintiff was not the only employee over age 50 who

was hired while she was there. While plaintiff was there, employees under age 50 were fired for
various reasons. Plaintiff worked the first several years at the SBA without any problems, but then
the SBA hired another programmer who had about 13 more years of full-time information
technology work experience than she did. That new programmer was assigned a project that
plaintiff wanted based on her seniority and experience within the SBA. Coinciding with the failure
to obtain that project, a series of problems began arising between plaintiff, the new programmer,
and other coworkers. The problems culminated in accusations of discrimination on plaintiffs side
and a formal Letter of Expectations and Performance Improvement Plan on her employer’s side.
The SBA ultimately decided that plaintiff had too many deficiencies in her performance for the
projects to which she was assigned. The SBA fired plaintiff, and plaintiff sued claiming
discrimination and retaliation under Title VII of the Civil Rights Act of 1964 (“Title VII”), 42 U.S.C.
§§ 2000e to 2000e-17; the Rehabilitation Act of 1973, 29 U.S.C. §§ 701-7961; and the Age
Discrimination in Employment Act of 1967 (“ADEA”), 29 U.S.C. §§ 621—634.

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 2 of 18

Defendants the SBA and Linda McMahon, sued in her official capacity as SBA
Administrator, now have moved for summary judgment under Rule 56 of the Federal Rules of Civil
Procedure. (Dkt. No. 29.) Defendants argue that many of plaintiff s allegations are time-barred
because she did not present them to an equal employment opportunity (“EEO”) counselor within
the time required by the applicable regulations. Defendants argue further that plaintiff simply did
not complete a certain technical documentation project to their satisfaction, even after being told
exactly how to perform through the Letter of Expectations and after being offered twice-weekly
meetings with her supervisor to keep the project on track. Plaintiff has conceded that she cannot
make a prima facie case for age discrimination. Plaintiff argues that her remaining allegations are
timely, under the continuing-violation doctrine. Plaintiff argues further that her remaining
allegations should go to trial because she had no problems in the office until she, as the only female
programmer, was passed over for preferred projects by a male programmer who just arrived.
District Judge Richard J. Arcara has referred this case to this Court under 28 U.S.C. § 636(b).
(Dkt. No. 5.) The Court held oral argument on December 18, 2018. For the reasons below, the
Court respectfully recommends granting defendants’ motion.
II.

BACKGROUND
This case concerns allegations that defendants progressively squeezed plaintiff, their only
female programmer, out of their office environment in favor of preferred male programmers.
Defendants hired plaintiff on November 28, 2005 as an Information Technology Specialist in the
Office of Disaster Assistance (“ODA”) in Buffalo, New York. Plaintiffs hire was recommended by

Thomas Guido (“Guido”) and approved by ODA Director William Leggiero (“Leggiero”). Plaintiff
was born in 1949 and was 56 years old when hired.

2

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 3 of 18

The first few years of plaintiff s employment at the ODA appear to have proceeded
uneventfully. Plaintiff began at a particular salary grade called GS-11 IT Specialist. By December
2006, Guido recommended, and Leggiero approved, plaintiffs promotion to GS-12 IT
Specialist. Around 2005 or 2006, ODA designated a person named Larry Lanza as a Lead IT
Specialist in the area of telecommunications. Lanza was at least 50 years old at the time of his hire.
(Dkt. No. 31-1 at 63.) Meanwhile, plaintiff s duties included the development, implementation, and
support of software applications. Based on performance evaluations, plaintiff met or exceeded
expectations from November 2005 through September 2009.
The events that eventually led to this case began with a personnel departure in 2009. That
year, an ODA IT employee/contractor named Charles Appleby (“Appleby”) fell ill and had to stop
working. After Appleby left, defendants hired William Malek (“Malek”). Defendants hired Malek at
the GS-12 level, not GS-11, because he had approximately 13 years of full-time work experience in
information technology before arriving at the ODA. From the beginning, plaintiff and Malek did
not get along. The parties sharply dispute why, but whatever happened, the record suggests a
combination of a personality conflict and confusion about who would carry out what
responsibilities. For example, the parties cannot even agree as to whether Guido in September 2009
assigned plaintiff the task of compiling a manual for software applications developed in the ODA.
(See Dkt. No. 33-14 at 11-12 (“Response: Deny. In October 2009, Guido simply asked for links to
where the manual was stored on the network.”).) A lot of disputes also surround a certain webbased technology project that the ODA began developing in the fall of 2009. Defendants gave the
project to Malek and insisted that he was the right person for the job, given significant webdevelopment experience from prior employment. Plaintiff felt that she was the right person for the
job based on her seniority and experience at the ODA. (See Dkt. No. 31-1 at 68.)

3

Case 1.16-CV-00125-RJA-HBS Document 45 Filed 02/21/19 Page 4 of 18

While the issue of the manual was unfolding, plaintiff underwent cataract surgery in
December 2009 in both eyes. The surgery corrected the problem, and no doctor ever declared
plaintiff disabled. Both before and after the surgery, Guido asked plaintiff what he could do to help.
The parties dispute whether plaintiff encountered any difficulties in obtaining accommodations, but
plaintiff acknowledges that certain written materials were eventually placed on the ODA’s internal
network, to allow her to read the text in an enlarged size. While plaintiff was on medical leave
following her surgery, a problem arose with one of the ODA’s applications called the Disaster
Locator. The Disaster Locator application helps determine whether a disaster survivor can be
eligible for federal assistance. Defendants assert that the application “went down,” while plaintiff
asserts that the application’s malfunction was a known problem that could have been corrected by
consulting a manual that Appleby had created. Either way, the parties agree that defendants called
plaintiff while at home to see whether she could address the problem. Plaintiff corrected the
problem, but not before another dispute arose as to whether she insisted on addressing the problem
herself and refused to work with Malek.
The conflict between the parties worsened heading into 2010. The parties could not agree as
to whether plaintiff had been assigned the applications manual project; by early 2010, they could not
agree as to what the project entailed, what deadline had to be met, or whether plaintiff provided
satisfactory content for the manual. In February 2010, plaintiff complained to Guido’s supervisor
about how the growing conflict in the office resulted from discrimination—namely, that Guido
favored male employees. On March 23, 2010, Guido provided plaintiff with a Letter of
Expectations that described deficiencies in plaintiffs performance. (Dkt. No. 31-3 at 2.) The Letter
of Expectations included descriptions of incomplete technical documentation; delays in completing
help desk tickets; missed deadlines; and poor time management. The Letter of Expectations then

4

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 5 of 18

explained what documentation and training had to be completed. In the letter, Guido established a
schedule of helping plaintiff to meet these expectations by meeting with her twice weekly. The
Letter of Expectations set a deadline of May 7, 2010 for the completion of goals described. On May
27, 2010, Guido gave plaintiff a letter evaluating her performance and how she fell short of meeting
the goals set in the Letter of Expectations. (Dkt. No. 31-4 at 2.) Plaintiff refused to sign the letter
to acknowledge receipt. On June 22, 2010, Guido gave plaintiff a written Performance
Improvement Plan. (Dkt. No. 31-5 at 2.) In the letter, Guido explained how, in his view, plaintiff
failed to complete the assignments described in the May 27 letter. Guido gave plaintiff 60 days to
improve her performance, but then extended that time to October 15, 2010 to accommodate
plaintiff s medical leave following surgery to relieve a blockage in a carotid artery. On October 15,
2010, plaintiff made formal contact with defendants’ EEO counselor to complain about her
treatment. By the fall of 2010, Guido still found plaintiffs attempts at improvement unacceptable.
Guido sent plaintiff a letter on November 12, 2010 proposing her termination and explaining why.
(Dkt. No. 31-6 at 2.) On January 11, 2011, Leggiero accepted the proposal and terminated plaintiff.
(Dkt. No. 31-7 at 3.)
Plaintiff next exhausted her available administrative remedies. On December 22, 2010,
plaintiff filed an administrative complaint with the SBA, alleging multiple forms of discrimination
including retaliation for reporting discrimination. The SBA ruled against plaintiff in a final agency
decision on June 26, 2012. The Merit Systems Protection Board affirmed the agency decision on
March 15, 2013. The Equal Employment Opportunity Commission affirmed the agency decision on
May 13, 2015 and then denied reconsideration on November 18, 2015.
Plaintiff filed her complaint on February 15, 2016. (Dkt. No. 1.) The complaint contained
six claims. In the first three claims, plaintiff accused defendants of unlawful discrimination in

5

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 6 of 18

violation of Tide VII, the Rehabilitation Act, and the ADEA, respectively. In the last three claims,
plaintiff accused defendants of retaliation in violation of Title VII, the Rehabilitation Act, and the
ADEA, respectively.
Defendants filed the pending motion on July 31, 2018. Defendants’ arguments for summary
judgment fall into two general categories: timeliness and threshold. With respect to timeliness,
defendants argue that plaintiff had 45 days from any perceived act of discrimination to initiate the
counseling process with her office’s EEO counselor. Failure to initiate counseling within 45 days
prohibits litigation over any alleged discrimination. In defendants’ view, because plaintiff did not
initiate EEO counseling until October 15, 2010, she is prohibited from litigating any allegedly
discriminatory conduct that occurred before September 1, 2010. As for threshold, defendants argue
that the events that she has cited after September 1, 2010 simply do not rise to the level of
discriminatory or retaliatory conduct as a matter of law. Apart from her termination in itself,
plaintiff has cited to events after September 1, 2010 that include her evaluation on the Performance
Improvement Plan and increased scrutiny of her performance on projects like the applications
manual. Defendants argue that, even giving plaintiff every favorable inference and considering all
events as timely, the events that she has cited did not change her position or pay until her final
termination for failure to improve:
[M]any of the allegedly discriminatory actions claimed byplaintiff do not meet
the standard for an adverse employment action including: (i) the hiring of William
Malek in September 2009 (Exh. 2, p. 8, 1); (ii) a promotion received by Larry Lanza
in 2006 (Exh. 2, pp. 8-9, 2); (iii) training received by Charles Appleby in July 2009
(Exh. 2, p. 9, Tj 3); (iv) the issue of plaintiff not being invited to meetings between
Guido and Malek (Exh. 2, p. 9, f 4; p. 44, 96); (v) plaintiffs claim that she was
denied the ability to earn credit hours (Exh. 2, p. 9, 5); (vi) alleged denial of
opportunities to work overtime (Exh. 2, pp. 9-10, 7); (vii) Guido’s call to plaintiff
at her home while she recuperated from surgery in December 2009 (Exh. 2, p. 10,
8); (viii) the assignment of the web development project to Malek instead of plaintiff
(Exh. 2, p. 10, 9; p. 44, ^ 94-95); (ix) the March 23, 2010 Letter of Expectations
(Exh. 2, pp. 10-11,
12-16); (x) the events concerning a meeting of May 7, 2010 in
6

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 7 of 18

which Guido allegedly refused to give plaintiff an extension of the deadline on the
applications manual project (Exh. 2, p. 11-12, H 17, pp. 45-46, ^ 100); (xi) the events
of August 2010 wherein Guido required plaintiff to maintain detailed time records
(Exh. 2, p. 18, U 38); (xii) the events in August 2010 regarding SCR 018-10 (Exh. 2, p.
18, H 39); (xiii) the events of August 24, 2010 regarding the completion of leave slips
(Exh. 2, p. 18, 40); (xiv) the change to plaintiffs work hours in October 2010 (Exh.
2, pp. 18-19, H 41); (xv) plaintiff being required to include Kristin Hughes in her
communications with IT customers (Exh. 2, p. 44, D 98); (xvi) the appointment of
Mark Parrish as a tester on Malek’s projects (Exh. 2, p. 45,![ 99); (xvii) Guido’s
delivery of plaintiffs applications manual to an SBA office in Herndon, Virginia by
means of photocopying (Exh. 2, p. 46,1[ 101); and (xviii) a comment made by Malek
to plaintiff in September 2010 (Exh. 2, p. 47,![ 105). None of these incidents or
claims constitute an adverse employment action as they all involve minor issues
relating to work assignments, minor changes in work duties or hours, allegations of
excessive scrutiny, or single occurrence incidents that had no effect on plaintiffs
position or pay.
(Dkt. No. 32 at 9.) Defendants also note that “Guido has recommended the hiring of many female
employees, including plaintiff, Hughes and others. Guido has also recommended the termination of
employees without regard to gender: he recommended the termination of plaintiff, who is female,
but he has also recommended the termination of three employees who were male.” (Id. at 10.)
Consequently, in defendants’ view, plaintiff has not established any triable issues of fact regarding
either discrimination or retaliation.
Plaintiff opposes the pending motion in most respects. “Plaintiff concedes that she will not
be able to sustain her burden at this stage of establishing age discrimination.” (Dkt. No. 33-15 at 11
n.l.) As for the issue of timeliness, though, plaintiff argues briefly that the various adverse actions
taken against her were of a continuous nature, with at least some of them occurring after September
1, 2010. Plaintiff thus believes that all of her alleged adverse actions merit consideration. With
respect to the threshold issue, plaintiff disputes the veracity of the description of her performance in
the Letter of Expectations, the Performance Improvement Plan, and related evaluations. Plaintiff
dismisses any sudden concern about her performance, after four uneventful years, as pretextual and
retaliatory. “Moreover, Defendants’ other assertions that Plaintiff did not handle help desk tickets,

7

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 8 of 18

did not provide the information that Guido wanted on a training questionnaire or did not add
reservists to the Active Directory are all thinly veiled attempts to justify a ‘legitimate business
decision.’” (Id at 10.) Plaintiff also points to the following examples of disparate treatment:
In addition to the above discussed adverse actions, there were further
discriminatory actions which smacked of disparate treatment. These actions
included, but were not limited to, Malek was assigned project leads, even though
DeMuth had several years more experience at the SBA. Further, Malek, as well as
Larry Lanza, were hired as G-12’s, whereas Plaintiff was hired as a G-ll, despite
there being no discernable reason for this disparity. Plaintiff, as plainly
acknowledged by Guido, had appropriate credentials and experience at the time she
was hired. Further, Plaintiff received only two trainings the entire time she was
employed by SBA.
Crucially, with the onset of the Applications Manual assignment in the fall of
2009, Plaintiff was tasked with completing a project that required more than one
person to complete. There was no deadline set by Guido at the time of the
assignment and Plaintiff diligently provided links and updates to Guido. Further,
. Plaintiff was not permitted to respond to Guido’s “Letters.”
Essentially, the applications manual was the vehicle with which Guido used
to retaliate and discriminate against plaintiff.
Further, Plaintiff was the only non-probationary employee who was subject
to formal negative performance evaluations by Guido, and was the only employee
who was denied the ability to earn credit hours. Ultimately, she was the only nonprobationary employee terminated by Guido due to purported performance issues.
Moreover, plaintiff was continually singled out by Guido. A striking example
of this was Malek being directed by Guido to, essentially, spy on Plaintiff.
(Id at 12-13.)
In reply, defendants point to the amount of discovery that plaintiff declined to pursue over
the course of her case, here and at the administrative level:
[PJlaintiff presents no direct evidence of discriminatory or retaliatory intent
and she does not even provide any circumstantial proof from which a fact-finder
could infer the presence of discriminatory or retaliatory intent. For example, plaintiff
alleges that her supervisor, Thomas Guido (“Guido”), “wanted a male in my position
because most of the IT applications people at the SBA were male.” Dkt. # 33, 33.
Plaintiff provides no evidence for this proposition and, of course, ignores the salient
point that Guido recommended that plaintiff be hired in November 2005 and

8

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 9 of 18

promoted the following year—strange behavior indeed for a supervisor who
allegedly does not want female programmers as subordinates! In addition, most of
the allegations upon which plaintiff relies occurred before September 1, 2010 and are
time-barred by the 45-day statute of limitations.
The parties are now nearing the conclusion of seven years of administrative
and district court litigation. Plaintiff had the opportunity, during the administrative
phase and this action, to take the deposition of all relevant SBA employees
mentioned in plaintiff s opposition papers, including Guido, Malek, Kristin Hughes,
Larry Lanza, Deputy Director (now Director) Colleen Hiam, and Director (now
retired) William Leggiero. She chose to only take the deposition of Guido during
discovery in this action. In addition, the parties have exchanged well over 3000
pages of documents. Plaintiffs failure to provide evidentiary support for her
allegations should be fatal to her claims at the summary judgment stage.
(Dkt. No. 40 at 2.)
III.

DISCUSSION
A. Summary judgment motions generally
“The court shall grant summary judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). “As to materiality, the substantive law will identify which facts are material. Only
disputes over facts that might affect the outcome of the suit under the governing law will properly
preclude the entry of summary judgment.... More important for present purposes, summary
judgment will not lie if the dispute about a material fact is ‘genuine,’ that is, if the evidence is such
that a reasonable jury could return a verdict for the nonmoving party.” A.nderson v. Liberty Lobby, Inc.,
All U.S. 242, 248 (1986) (citation omitted). “The party seeking summary judgment has the burden
to demonstrate that no genuine issue of material fact exists. In determining whether a genuine issue
of material fact exists, a court must examine the evidence in the light most favorable to, and draw all

inferences in favor of, the non-movant.... Summary judgment is improper if there is any evidence
in the record that could reasonably support a jury’s verdict for the non-moving party.” Marvel
Characters, Inc. v. Simon, 310 F.3d 280, 286 (2d Cir. 2002) (citations omitted).
9

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 10 of 18

B. Are some ofplaintiffs claims time-barred?
Before determining what factual disputes require resolution by a jury, the Court will assess
defendants’ assertion that at least some of plaintiff s claims are time-barred. Title VII applies to
federal government employment by way of 42 U.S.C. § 2000e-16. The Rehabilitation Act makes
Title VII’s rights and remedies available to federal employees by way of 29 U.S.C. § 794a. The
ADEA has its own provisions to address age discrimination. See 29 U.S.C. §§ 623, 633a. “Prior to
bringing suit under either Title VII or the ADEA, a federal government employee must timely
exhaust the administrative remedies at his disposal. Failure to do so can be asserted by the
government as an affirmative defense.” Belgrave v. Pena, 254 F.3d 384, 386 (2d Cir. 2001) (internal
quotation marks and citation omitted). The same goes for the Rehabilitation Act. “EEOC
regulations require an employee suing the federal government under the Rehabilitation Act to
exhaust certain administrative remedies before initiating a suit in the district court. Thus, an
aggrieved agency employee must first seek EEO counseling within forty-five days of the allegedly
discriminatory act.” Boos v. Runyon, 201 F.3d 178,181 (2d Cir. 2000) (citation omitted).
All three statutes that plaintiff has invoked use 29 C.F.R. § 1614.105(a) as the process by
which federal employees must exhaust administrative remedies. Under the process, employees
“must initiate contact with a Counselor within 45 days of the date of the matter alleged to be
discriminatory,” 29 C.F.R. § 1614.105(a)(1). “This timeliness requirement is not jurisdictional, and
the filing deadline is subject to waiver, estoppel, and equitable tolling.” Bruce v. U.S. Dep’t ofJustice,
314 F.3d 71, 74 (2d Cir. 2002) (citations omitted). “Courts may evaluate whether it would be proper
to apply such doctrines, although they are to be applied sparingly.” Nat’l R.R. Passenger Corp. v.
Morgan, 536 U.S. 101,113 (2002) (citation omitted). When considering whether to forgive a
timeliness requirement for equitable reasons, courts have to make an important distinction between
10

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 11 of 18

discrete discriminatory acts and a repeated discriminatory practice that amounts to an ongoing
policy. “[Discrete discriminatory acts are not actionable if time barred, even when they are related
to acts alleged in timely filed charges.” Id. at 113. An example of a repeated practice would be acts
creating a hostile work environment. “A charge alleging a hostile work environment claim, however,
will not be time barred so long as all acts which constitute the claim are part of the same unlawful
employment practice and at least one act falls within the time period.” Id. at 122. Other examples
exist as well. “Although the continuing violation exception is usually associated with a
discriminatory policy, rather than with individual instances of discrimination, and although acts so
isolated in time from each other or from the timely allegations as to break the asserted continuum of
discrimination will not suffice, a continuing violation may be found where specific and related
instances of discrimination are permitted by the employer to continue unremedied for so long as to
amount to a discriminatory policy or practice.” Fitzgerald v. Henderson, 251 F.3d 345, 359 (2d Cir.
2001) (internal quotation and editorial marks and citations omitted).
Here, plaintiff has not made enough of a showing to warrant the use of the continuingviolation doctrine. The parties agree that no actionable events occurred, and that plaintiffs
performance was generally satisfactory, between her start in 2005 and the fall of 2009. After the
hiring of Malek in 2009, plaintiff asserts that Malek “was resistant,” “was hostile,” and “refused to
listen.” (Dkt. No. 33-15 at 3.) These conclusory phrases do not cross the threshold for the types of
repeated practices that could amount to an ongoing policy of discrimination. Cf. Alers v. Neu> York
City Human B«. Admin., No. 06-CV-6131 SLT LB, 2008 WL 4415246, at *6 (E.D.N.Y. Sept. 24,
2008) (insensitive and offensive conduct without more does not create a continuing violation for a
hostile work environment), affdsub nom. Alers v. Human Res. Admin., 357 F. App’x 330 (2d Cir. 2009);
Fontanez v. Thompson, No. 00 CIV. 2090 (DFE), 2003 WL 1964052, at *11 (S.D.N.Y. Apr. 24, 2003)
11

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 12 of 18

(assertion that defendant “embarked on a course to remove all supervisors and managers who were
in their 50s and 60s from their positions” did not suffice to allege a policy or practice). In contrast,
most of the problems that arose between the parties appear to be anchored around a few distinct
events: Malek’s hiring in 2009; the applications manual project; plaintiffs surgery in December 2009;
issues with the disaster locator application in December 2009; and a web development project. The
complaint confirms the Court’s sense that individual events prompted poor relations between the
parties. Cf. Fitzgerald, 251 F.3d at 365 (separating sexual advances from a hostile work environment
and finding the former not protected under a continuing violation theory); Hanfland v. Donahoe, No.
10-CV-6106-FPG, 2015 WL 4930582, at *8 (W.D.N.Y. Aug. 18, 2015) (compiling cases in which
transfer, suspension, discipline, promotion, compensation, and repeated denials of promotions and
training opportunities were all discrete acts). Every claim in the complaint cites plaintiffs
termination as an adverse action or plaintiffs performance letters as retaliatory actions. None of the
claims asserts a hostile work environment or some similar repeated practice.
Consequently, the 45-day time limit in 29 C.F.R. § 1614.105(a)(1) will have to be enforced.
Plaintiff initiated contact with her office’s EEO counselor on October 15, 2010. (Dkt. No. 31-1 at
59.) Working back 45 days brings plaintiff to September 1, 2010. Any triable issues of fact in this
case will have to have originated on or after September 1, 2010.
C. Are plaintiffs remaining claims triable?
The Court now will turn to an assessment of events that allegedly occurred on or after
September 1, 2010. “At the summary-judgment stage, properly exhausted Title VII claims are
ordinarily analyzed under the familiar burden-shifting framework of McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973), and its progeny. At the first stage of the McDonnell Douglas analysis, the plaintiff
bears the burden of establishing a primafacie case of discrimination by showing that: 1) he belonged
12

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 13 of 18

to a protected class; 2) he was qualified for the position; 3) he suffered an adverse employment
action; and 4) the adverse employment action occurred under circumstances giving rise to an
inference of discriminatory intent. The plaintiff s burden of proof at the prima facie stage is not
onerous.” Mathirampu^ha v. Potter, 548 F.3d 70, 78 (2d Cir. 2008) (internal quotation marks and
citations omitted). The same framework governs plaintiff s discrimination claims under the
Rehabilitation Act and the ADEA. See Goryynski v. JetBlue Airways Corp., 596 F.3d 93,106 (2d Cir.
2010) (ADEA); Teahan v. Metro-N. Commuter R. Co., 951 F.2d 511, 514 (2d Cir. 1991) (Rehabilitation
Act).
Here, the first two elements of a primafacie case are not in serious dispute, but the third and
fourth elements require closer attention. Plaintiff has conceded that she cannot establish a primafacie
case of discrimination under the ADEA. (Dkt. No. 33-15 at 11.) As for the other discrimination
claims, by September 1, 2010, plaintiff had received both a Letter of Expectations and a
Performance Improvement Plan with respect to her technical documentation project. The letters
together give plaintiff specific descriptions of how she had to improve her performance and what
resources she had available to help, including weekly meetings with Guido and resources that would
improve her training. The Letter of Expectations and Performance Improvement Plan did not
change plaintiffs pay or any material terms or conditions of her employment. Cf Canady v. Union
1199, 253 F. Supp. 3d 547, 554 (W.D.N.Y. 2017), affd sub nom. Canady v. Univ. of Rochester, 736 F.
App’x 259 (2d Cir. 2018) (summary order) (Letter of Expectations was not an adverse employment
action and was supported by prior disciplinary history). Around the same time, plaintiff returned
from medical leave with a letter from her physician requesting that she be assigned light duty.
Defendants complied with the request. Because of her medical leave, plaintiff received extra time to
fulfill the requirements of the Performance Improvement Plan. Plaintiff concedes that any meetings
13

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 14 of 18

from which she might have been excluded were about Malek’s Web application project and not
about her technical documentation project. (Dkt. No. 33-14 at 30.) Plaintiff asserts that she was
denied some opportunities to earn credit hours, but these denials overlapped with her time on the
Performance Improvement Plan. Cf Krupa v. Dunkirk Specialty Steel, LLC, No. 13-CV-76A, 2014
WL 6387283, at *8 (W.D.N.Y. Nov. 14, 2014) (“As for job opportunities, Krupa has repeated
allegations that she was promised more training and that she ought to have received more training.
By itself, however, Krupa’s mere wish to have more responsibilities that would have led to more
overtime does not constitute an adverse employment action.”) (citation omitted). Meanwhile,
plaintiffs concerns about management of help-desk tickets are not triable. Plaintiff admits that in
October 2010, she was asked to provide a time estimate for completing a training questionnaire as
either a web application or a Windows application; she provided a time estimate for the Windows
option only. (Dkt. No. 33-14 at 36.) Any incidents with functional analyst Hughes appear to be
isolated incidents that did not lead to any adverse actions. Defendants’ critique of plaintiffs final
technical documentation is based on design and content and does not appear to have a comparison
to similar work done by other employees. Even granting plaintiff the benefit of all inferences, the
undisputed circumstances point to differences in personalities and work expectations that fall within
the range of managerial discretion and do not, without more, establish a primafacie case of
discrimination. Cf. Davis v. SSC Disability Servs., LLC, 166 F. Supp. 3d 211, 214 (D. Conn. 2016)
(“The only evidence in the record shows a pattern of deficient performance and that such deficient
performance was the basis for the defendant’s warnings and the ultimate termination of the
plaintiffs employment.”). And the above circumstances do not include the simpler fact that plaintiff
worked at her office from 2005 until early 2011; that she had the same supervisor at all times; that
older employees were hired during her time while younger male employees were terminated; and
14

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 15 of 18

that no problems arose until 2009 when plaintiff began having disagreements over projects that she
preferred to have. Guido also typically left either Hughes, a female, or Lanza, a male over the age of
50, in charge in his absence. Cf. Hoose v. Monroe Cty., No. 09-CV-6080T, 2014 WL 4184815, at *4
(W.D.N.Y. Aug. 21, 2014 (“Of the seven employees disciplined for improperly accessing private
information, two women and two men were terminated, and two women and one man received
lesser forms of discipline. Such evidence demonstrates that women were not treated differendy than
men with respect to the application of discipline for violating defendant’s policies.”). Alternatively,
even if plaintiff could establish a primajade case, the circumstances surrounding her Performance
Improvement Plan and the completion of the technical manual constitute a neutral, non-contextual
reason for the termination. Summary judgment thus is appropriate for plaintiffs discrimination
claims.
Plaintiff s retaliation claims fare no better. “In order to make out a prima facie case of
retaliation, a plaintiff must show by a preponderance of the evidence i) participation in a protected
activity known to the defendant; ii) an employment action disadvantaging the plaintiff; and iii) a
causal connection between the protected activity and the adverse employment action. Moreover, the
burden that must be met by an employment discrimination plaintiff to survive a summary judgment
motion at the prima facie stage is de minimis. If the plaintiff meets this burden, the defendant must
then articulate a legitimate nondiscriminatory reason for its actions. If the defendant meets its
burden of production, the plaintiff will then have an opportunity to prove that the proffered reason
was merely a pretext for retaliation and that the employer’s action was prompted by an
impermissible motive.” Tomka v. Seiler Corp., 66 F.3d 1295,1308 (2d Cir. 1995) (internal quotation
and editorial marks and citations omitted), abrogated in part on othergrounds by Turlington Indus., Inc. v.
Ellerth, 524 U.S. 742 (1998). Here, after September 1, 2010, plaintiff engaged in protected activity by
15

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 16 of 18

meeting with het office’s counselor on October 15, 2010 to complain of discriminatory treatment.
Plaintiff subsequently received two letters from her supervisor: one on November 12, 2010
explaining her deficiencies and proposing her termination; and one on January 11, 2011 confirming
her termination. These two letters satisfy the first element for retaliation but do not satisfy the
second or third. The November 12 and January 11 letters followed letters dated March 23, May 27,
and June 22, 2010, all of which set forth plaintiff s expectations and deficiencies in meeting them.
Guido had given plaintiff the additional resources of weekly meetings with him to review her work
product to make sure that it finally would meet expectations. Cf Brown v. Am. Golf Corp., 99 F.
App’x 341, 343 (2d Cir. 2004) (summary order) (“Brown’s claim that being placed on the
Performance Improvement Plan constituted retaliation in violation of Tide VII fails at the prim afacie
stage because being placed on the Performance Improvement Plan was not an adverse employment
action. The Performance Improvement Plan instructed Brown to attend several seminars, read
certain materials, implement ways to reward his co-workers, review and follow a business plan,
conduct weekly staff meetings, and implement certain planning and scheduling mechanisms.”).
From the sole deposition of a coworker that she chose to take, and from her own testimony,
plaintiff simply has not provided enough information to allow a reasonable jury to suspect that the
November 12 and January 11 letters were anything more than a continuation of a year-long concern
about her performance. Under these circumstances, plaintiff has not made out a primafacie case for
retaliation; and even if she had, defendants have shown legitimate, year-long reasons for the ultimate
decision to terminate plaintiff.
IV.

CONCLUSION
For all of the foregoing reasons, the Court respectfully recommends granting defendants’

motion (Dkt. No. 29).
16

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 17 of 18

V.

OBJECTIONS
A copy of this Report and Recommendation will be sent to counsel for the parties by
electronic filing on the date below. “Within 14 days after being served with a copy of the
recommended disposition, a party may serve and file specific written objections to the proposed
findings and recommendations.” Fed. R. Civ. P. 72(b)(2); see also 28 U.S.C. § 636(b)(1). Any
objections must be filed electronically with the Clerk of the Court through the CM/ECF system.
“As a rule, a party’s failure to object to any purported error or omission in a magistrate
judge’s report waives further judicial review of the point.” Cephas v. Nash, 328 F.3d 98,107 (2d Cir.
2003) (citations omitted); see also Mario v. P & C Food Markets, Inc., 313 F.3d 758, 766 (2d Cir. 2002)
(“Where parties receive clear notice of the consequences, failure timely to object to a magistrate’s
report and recommendation operates as a waiver of further judicial review of the magistrate’s
decision.”) (citation omitted). ‘We have adopted the rule that failure to object timely to a magistrate

judge’s report may operate as a waiver of any further judicial review of the decision, as long as the
parties receive clear notice of the consequences of their failure to object. The rule is
enforced under our supervisory powers and is a nonjurisdictional waiver provision whose violation
we may excuse in the interest of justice.” United States v. Male Juvenile (95-CR-1074), 121 F.3d 34,
38—39 (2d Cir. 1997) (internal quotation marks and citations omitted).
Where a party only raises general objections, a district court need only satisfy itself there is
no clear error on the face of the record. Indeed, objections that are merely perfunctory responses
argued in an attempt to engage the district court in a rehashing of the same arguments set forth in
the original papers will not suffice to invoke de novo review. Such objections would reduce the
magistrate’s work to something akin to a meaningless dress rehearsal.” Owusu v. N.Y. State Ins., 655

17

Case l:16-cv-00125-RJA-HBS Document 45 Filed 02/21/19 Page 18 of 18

F. Supp. 2d 308, 312-13 (S.D.N.Y. 2009) (internal quotation and editorial marks and citations
omitted).
SO ORDERED.

/6

QfesM

Hon. Hugh B. Scott
United States Magistrate Judge
DATED: February 21, 2019

18

3^^
CONFIDENTIAL
Transcript of Thomas J. Guido
Conducted on May 10,2018
1

there was some issues and really not significant

2

progress made against that and she said she didn't

3

know what I wanted, I tried to provide some

4

guiding principles and some framework that would

5

be a reasonable approach to such a task.

6
7
8

Q

Had she ever been tasked with something

like this prior to September 2009?
A

Not in the same form.

That was the point.

9

We hadn't been -- she hadn't been documenting and

10

Mr. Applebee as well hadn't been documenting the

11

systems in that way prior.

12
13
14

Q

Was it a fairly significant undertaking to

get this Applications Manual done?
A

Yes, I would think so.

One thing that we

15

didn't have a significant amount of -- I didn't

16

have a significant amount of -- I didn't have a

17

significant amount of feedback from Ms. Demuth on

18

was what she thought, her estimate of what she

19

thought that would take.

20

what I thought was a reasonable time frame and

21

then later she clearly thought that was

22

unreasonable and unreasonable to ask.

23

132

I provided repeatedly

In entirety though this ended up really

24

going on for a year or almost a year which is

25

absolutely enough time frame.

It's something I
SsSPfiiil'f

PLANET DEPOS
888.433.3767 | WWW.PLANETDEPOS.COM

1\*
CONFIDENTIAL
Transcript of Thomas J. Guido
Conducted on May 10, 2018

133

1

originally thought rcould get caught up in a >

2

(reasonable way in a month if dedicated to it.

3

mean the notion was to let's pause on development!

4

Let's get this caught up before we do too much;

5

'' \

I J

more .
V.-

6

Q

Did you give her a deadline when you first

7
8
9

What was the initial time frame?

assigned this task to her?
A

I don't recall that I gave her an initial

10

time frame in September.

11

that after.

I did follow-up with

12

Q

Did Ms. Demuth complete this task ever?

13

A

No, I do not believe she ever completed it

14

satisfactorily.

15

Q

Did the Applications Manual ever get done?

16

A

No.

17

Q

It never did?

18

A

Not by her.

19

Q

By anybody in general?

20

A

Yes.

21

Q

Who completed it?

22

A

A combination of folks but I believe the

23

initial pass was Mr. Malek following her

24

departure.

25

Q

So there was more than one

more than

mumm

PLANET DEPOS
888.433.3767 | WWW.PLANETDEPOS.COM

3Ul&.
Guido, Thomas J.
F «n:

[JbAalek, William b3 '

S* -*•

Thursday, March 18, 2010 3:23 PM

buoject:

Guido, Thomas J. :
QA and TL Project Timeline

ro

prism ‘-lots'

Attachments: QA and TL Project TimeLine.doc
Hi Tom,
I have enclosed a detailed project process and its estimated timeline. If you have any questions please let me know.
Regards,
William B. Malek,
Information Technology Specialist
Application Developer
U.S. Small Business Administration
Disaster Assistance Customer Service Center
130 South Elmwood Ave., Buffalo NY 14202
(716)843-4100 (Ext. 1248)

cIJiU {^rr\.
3-4
36-3A

TLefUrcrfr&n

Sh)^>/°

3/j.3p& 'Jckroogh

or 33 &Bys,

Atrb>

Oh Uj ) ftcJcj3?cL'Jh* 36&J

j4i/p 4Wt -facets a^Tct rn**Hrgsii
Ltiizr' cf
l33s
pUis
ds&jrf* 3 336~p2^o
* OsX~<frr\ {Yl^ruJ^) pi t/-S -j-jpTu*
4d ~f2h> Hiv d^rrsos,
^pr6d*s <^Tc>m.

-5^4/>^

op -fa

I

5/5/2010
i

Task For QA and TL Projects
1. Other activities outside the project (Helpdesk, and Meetings)
2. Requirement analysis
3. Documentation (Need Statements, and Testing)
Activities:
1. Join with the production database to development server
2. Adding fields and columns to 2 - 3 tables
3. Retrieving data from the staff report database will be through
5-6 stored procedures
Design: •______ 1. A new field will be added for CSR grade level
2. A new field will be added for call category percentage
3. A hidden field to capture the full score without the call
category percentage_____ ________________________
4. With the score field in place will change it formula to capture
the full score and call category percentage
Reports:
_________________
■
______
1. 3 reports will require changes and adding new fields
Testing
Deployment

Time
6

1-2
2

1
.5
2
.25
.25
.25
.25

2
3

1

Total Estimated Time: 20.5 - 21.5 Days
Total Estimated Time for both Applications: 30 -32 Days

£

